r>

APPENDIX 1 United States District Court dismissal of case No. 4:19-CV2354JAR on Nov. 20, 2019

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
RONALD DOUGLAS,

)
)
)
)
)
)
)
)
)

Plaintiff,

JOSH HAWLEY, etal.,
Defendants.

No. 4:19-CV-2354 JAR

ORDER OF DISMISSAL
IT IS HEREBY ORDERED that this action is DISMISSED without prejudice.
IT IS HEREBY CERTIFIED that an appeal from this action would not be taken in
good faith.
Dated this 20th day of November, 2019.

JOHN A. ROSS
UNPED STATES DISTRICT JUDGE

8 of 52

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
RONALD DOUGLAS,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
JOSH HAWLEY, et al.,
Defendants.

No. 4:19-CV-2354 JAR

MEMORANDUM AND ORDER
Plaintiff, Ronald Douglas, seeks leave to proceed in forma pauperis in this civil action
against a multitude of defendants. After a review of plaintiffs financial affidavit, the Court will
grant plaintiffs motion to proceed in forma pauperis. See 28 U.S.C. § 1915. However, for the
reasons set forth below, the Court will dismiss his complaint as frivolous. See 28 U.S.C. §
1915(e)(2)(B).
Discussion
Under 28 U.S.C. § 1915(e), a Court must sua sponte dismiss an indigent plaintiffs
complaint or any portion thereof which (1) is frivolous or malicious; (2) fails to state a claim
upon which relief may be granted; or (3) seeks monetary relief against a defendant who is
immune from such relief. A complaint is frivolous if “it lacks an arguable basis either in law or
in fact.” Neitzke v. Williams, 490 U.S. 319, 327 (1989). Dismissals on this ground should only
be ordered when legal theories are “indisputably meritless,” or when the claims rely on factual
• allegations that sure “clearly baseless.” Denton v. Hernandez, 504 U.S. 25, 31 (1992). “Clearly
baseless” factual allegations include those that are “fanciful,” “fantastic,” and “delusional.” Id. at
32-33 (quoting Neitzke, 490 U.S. at 325,327).

9 of 52

Plaintiff alleges a vast conspiracy relating to thirty-five (35) defendants in this action. i
His original complaint numbers 1874 pages, while his amended, or supplemental complaint, is
forty (40) pages in length.2 In essence, plaintiff alleges that defendants engaged in a conspiracy
in which bribes were solicited by the President of the United States and various government
agents and agencies “so that defendants would be able to violate the terms of their agreements
under state and federal constitutional laws without interference from the Justice Department.”
Plaintiff claims that by lying and denying that they were doing so, his rights to privacy were
invaded and he was unlawfully confined in mental wards.
Plaintiff seeks the recognition of the doctrines of collateral estoppel, the Federal Rules of
Evidence, an entry of preliminary injunction, the ability to admit hearsay, the suppression of
evidence, the eviction of the City of Moline Acres and the acknowledgement that he was forced
to work as a slave laborer at the Olivette 66 Service Center during the last twenty years. Plaintiff
also seeks appropriations for the “beaming of extremely low frequencies to the surfaces surface
of the Earth at the unwitting participant’s head causing him and his constituents to suffer
conspiratorial abuse of process against the pertinent defendants.”

‘Plaintiff names the following as defendants in this action: Josh Hawley (Missouri State Attorney General); Charles
Rettig (IRS Commissioner); Kenneth Zellers (Acting Director of the Missouri Department of Revenue); William
Barr (United States Attorney General); The United States Tax Court; Rick Stevens (President of Christian Hospital);
At&T; Northwest; Dr. Seth Tilzer; United States Bankruptcy Court for the Eastern District of Missouri; Mike
Parkson (Governor of Missouri); The Honorable Maura B. McShanc; Jay Ashcroft (Director of the Missouri
Department of Commerce); Wilbur Ross (U.S. Secretary of Commerce); City of Moline Acres; Jennifer Tidball
(Director of the Missouri Department of Social Services); Betsy DeVos (U.S. Secretary of Education); Chris
Slinkard (Director of the Missouri Division of Employment Security); Ajit Pai (Commissioner of the Federal
Communications Commission); Brendan Can; Anna Hui (Director of the Missouri Department of Labor and
Industrial Relations); Mark Stringer (Director of the Missouri Department of Mental Health); Andrew Saul (Acting
Commissioner of Social Security Administration); Washington University Police Department; Warner L. Baxter
(Chairman of Ameren); Tyler Asher (President of Safeco Insurance); Andrew Wheeler (Director of the U.S.
Environmental Protection Agency); Edward Chu (Action Regional Administrator of the Missouri EPA); Elaine
Chao (U.S. Secretary of Transportation); Administrative Aide to the Chief of Police (Private Security); Janet L.
Schanzle (Security Armored Car & Its Insurers); and Missouri Board of Registration of the Healing Arts.
1 Plaintiff has also filed a document titled “Amended Medical Malpractice Complaint & Plaintiffs Motion for
Summary Judgment” This document numbers 844 pages in length.

2

10 of 52

Plaintiff asserts he was the subject of multiple kidnappings from “defendant municipal
police departments” and that defendants “violated the [RICO statute],.. that caused Douglas to
lose his parents, two jobs, other asserts and unlawfully coerced him into performing slave labor
at Olivette 66 Service Center.” Plaintiff further alleges that “these elite group of American
defendants during the last thirty-seven years conspired and committed the crime of seconddegree assault by their knowing attempt in the murder of Ronald Douglas by means of their
manipulation of organism living on the earth surface (‘DC’ neuronal codes or patterns) with a
steady-current satellite system and with no consent With the intent of disclosing to all persons
within this electromagnetic field, ionospheric boundary and atmospheric cavity, of this satellite
system steady-current the contents of all of Ronald Douglas' wire, oral, and electronic
communications (everything that he has been doing, saying and thinking during the last thirtyseven (37) years has been disclosed to every person in the electromagnetic field, ionospheric
boundary and atmospheric cavity of the three dimensional orthogonal system of an earth orbiting
satellite's steady-current). Making Ronald Douglas and his constituency suffer (1), depression
(2), pain-induced aggression (3), escape (4), avoidance (5), sleep pattern (6), restricted activity
and (7), the hearing of voices ...” Plaintiff seeks in the billions of dollars for compensatory and
punitive damages.
From the complaint and supporting documents, plaintiff’s claims are clearly frivolous.
See Denton v. Hernandez, 504 U.S. 25, 31 (1992). Plaintiff provides no factual basis whatsoever
in support of his claims for espionage and conspiracy, which are patently absurd and
unsupported by any colorable legal theory. Thus, the Court finds that plaintiff’s complaint is
frivolous and fails to state viable legal claims.
Accordingly,

3

11 Of 52

\

IT IS HEREBY ORDERED that plaintiffs motion to proceed in forma pauperis [Doc.
#2] is GRANTED.
IT IS FURTHER ORDERED that the Clerk shall not issue process or cause process to
issue upon the complaint the complaint is legally frivolous.
IT IS FURTHER ORDERED that plaintiff’s motion for appointment of counsel [Doc.
#3] is DENIED AS MOOT.
IT IS FURTHER ORDERED that plaintiff’s motion for summary judgment [Doc. #7]
is DENIED AS MOOT.
A separate Order of Dismissal shall accompany this Memorandum and Order.
Dated this 20* day of November, 2019.

JOHWA. ROSS
UNITED STATES DISTRICT JUDGE

4

12 of 52

APPENDIX 2 United States Court of Appeals for the Eighth Circuit affirmed on
April 15, 2020 the U.S. District Court’s dismissal of this case
United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleion U.S. Courthouse
111 South 10th Street. Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Cans
Clerk of Court

April 15, 2020

Mr. Ronald Douglas
P.O. Box 300452
Sain! Louis, MO 63130
RE: 19-3700 Ronald Douglas v. Eric Schmitt, et al
Dear Mr. Douglas:
Enclosed is a copy of the dispositive order in the referenced appeal. Please note that
FRAP 40 of the Federal Rules of Appellate Procedure requires any petition for rehearing to be
filed within 14 days after entry of judgment. Counsel-filed petitions must be filed electronically
in CM/ECF. Paper copies are not required. This court strictly enforces the 14 day period. No
grace period for mailing is granted for pro-se-filed petitions. A petition for rehearing or a
motion for an extension of time must be filed with the Clerk's office within the 14 day period.
Michael E. Cans
Clerk of Court
NDW
Enclosure(s)
cc:

Mr. Gregory j. Linhares
District Court/Agency Case Number(s): 4:19-cv-02354-JAR

13 of 52

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-3700

Ronald Douglas
Plaintiff - Appellant
v.
Eric S. Schmitt, MO State Attorney General & Said Office's Other Officials; Charles Rettig, IRS
Commissioner & Empls. of the IRS; Kenneth Zellers, Acting Dir. of the Missouri Department of
Revenue, Employees of the MO Department of Revenue & the Treasurer as Custodian of the
Sec. Injury Fund; William P. Barr, U. S. Attorney General & Employees of the Attorney
General's Office; The Tax Court; Rick Stevens, President of Christian Hospital & Employees of
Christian Hospital; AT&T; Northwest; Seth Tilzer, M.D.; Bankruptcy Court, Eastern District of
Missouri; Michael L. Parson, Governor and Employees of the State of MO; Maura B. McShane,
Judge; John Ashcroft, MO Sec of Commerce & Secretary of State; Wilbur Ross, U.S. Secretary
of Commerce The Dep. of Commerce's Employees of National Telecom and Information
Administration & The Director of the Office of Telecommunications; David L. Bernhardt, U. S.
Secretary of Interior & Employees of the Department of Interior; City of Moline Acres,
Attorney, Its Employees & Its Insurer; Jennifer Tidball, Dir of the Dept, of Social Services &
Empls. of die Department of Social Services; Betsy DeVos, U.S. Secretary of Education &
Empls. of the Dept, of Education; Chris Slinkard, Director of the MO Division of Employment
Security & Employees of the MO Department of Employment Security; Ajit Pai, Commissioner
Employees of Federal Communications Commission & Brendan Carr; Anna Hui, Missouri
Director of Labor & Industrial Relations & Employees of the Labor & Industrial Relations
Commission; Mark SU'inger, Director of the Department of Mental Health in the State of
Missouri Employees of the Dept of Mental Health & Employees of the Metropolitan St. Louis
Psychiatric Center; Andrew Saul, Commissioner of Social Secur ity & Empls of the Social
Admin; Thomas F. George, Office of the Chancellor &Employees of the University of Missouri
St. Louis; Andrew Saul, Chancellor (Chair) Wash. University's Vice Chancellprjbr Human_____
Resources & Employees of Wash. U.; Wash. University Police Department, & Its Attorneys;
Warner L. Baxter, Chairman President & Chief Executive Office of Ameren CO. Employees of
Ameren Electric CO. & Its Insurer; Tyler Asher, President of Safeco Insurance Employees of
Safeco National Insurance & Safeco Group of Insurance Companies; Andrew Wheeler,
Employees of the U.S. Environmental Protection Agency & The Federal Interagency Committee
on Aviation Noise; Edward H. Chu, Acting Regional 7 Administrator Employees of the MO
EPA & The MO. Air Conservation Commission; Elaine L. Chao, U. S. Secretary of
Transportation & Employees of the Federal Aviation Admin; Chief of Police, Administrative
Aide (Private Security); Janet L. Schanzle, Security Annored Car & It's Insurers; Missouri State
Board of Registration for the Healing Arts
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:19-cv-02354-JAR)

14 of 52

JUDGMENT

Before LOKEN, COLLOTON, and KOBES, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a). Appellant’s motion to proceed on appeal in forma pauperis is granted.
April 15, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit .
/s/ Michael E. Gans

15 of 52

APPENDIX 3 the petition for rehearing by the panel was denied as overlength on
______________
May 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: ] 9-3700
Ronald Douglas
Appellant
v.
Eric S. Schmitt. MO Stale Attorney General & Said Office's Other Officials, et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:19-cv-02354-J AR) •
ORDER
The petition for rehearing by the panel is denied as overlength.
May 19, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

!
!
:
J

16 of 52

Additional material
from this filing is
available in the

Clerk's Office.

